DOE/IG-0458




               AUDIT
              REPORT


                               IN-VITRO BIOASSAY SERVICES
                                AT DEPARTMENT OF ENERGY
                                        FACILITIES




                                      FEBRUARY 2000




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                           February 15, 2000


MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman (Signed)
                        Inspector General

SUBJECT:                INFORMATION: Audit Report on "In-Vitro Bioassay Services at
                        Department of Energy Facilities"

BACKGROUND

Federal regulations require that routine bioassay programs be established for workers likely to receive
internal radiation doses. Bioassay programs determine kinds, quantities, or concentrations, and, in some
cases, locations of radioactive material in the body. The Department of Energy's (Department) bioassay
programs consist of two parts. In-vivo (inside the body) measurements include activities like whole-body,
lung, and thyroid counting. In-vitro (outside the body) monitoring, on the other hand, includes radiochemical
analyses of workers’ urine and fecal samples. Our audit was limited to bioassay analyses of urine samples,
which represent 98 percent of all in-vitro analyses. In Fiscal Year (FY) 1999, the Department performed
about 69,500 bioassay analyses at the 7 sites reviewed at an estimated cost of $7.7 million. The objective
of this audit was to determine whether the Department's contractors obtained bioassay analyses at the lowest
prices available.

RESULTS OF AUDIT

The Department's contractors did not obtain bioassay analyses at the lowest prices available. Although
discounts were available under Departmentwide subcontracts, two of the Department's contractors issued
their own subcontracts for bioassay analyses with rates that were higher than the Departmentwide rates.
Also, three contractors paid substantially different rates for similar or identical analyses performed by the
same subcontractor. These conditions occurred because the Department did not require contractors to use
the Departmentwide subcontracts and consolidate requirements into a single, cost-effective basic ordering
agreement. As a result, the Department incurred unnecessary costs of about $495,000 during FYs 1998
and 1999.

Also, we could not determine if the Department obtained bioassay analyses at the lowest prices available for
74 percent of the analyses reviewed because the three in-house laboratories were not required to capture
the actual cost of specific analyses performed. As a result, the Department cannot determine whether it is
more cost-effective to continue performing bioassay analyses in-house or subcontract the work to
commercial laboratories.

MANAGEMENT REACTION

Management agreed with the audit findings and recommendations and initiated corrective actions.

Attachment

cc: Deputy Secretary
    Under Secretary
IN-VITRO BIOASSAY SERVICES AT DEPARTMENT OF ENERGY
FACILITIES

TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..................................................................1

                Conclusions and Observations.................................................. 3


                Bioassay Subcontracts

                Details of Finding ...............................................................................4

                Recommendation and Comments ....................................................5


                Departmental Laboratories

                Details of Finding ...............................................................................7

                Recommendations and Comments ..................................................8


                Appendix

                Scope and Methodology...................................................................10
OVERVIEW

INTRODUCTION AND   Title 10 of the Code of Federal Regulations, Part 835, Occupational
OBJECTIVE          Radiation Protection, requires that routine bioassay programs be
                   established to monitor workers likely to receive internal radiation doses. The
                   Assistant Secretary for Environment, Safety and Health has the overall
                   responsibility for developing and maintaining policies, standards, and
                   guidance related to radiological protection within the Department. The
                   Department sets overall radiation exposure limits and allows each site to
                   develop a unique bioassay program based on local conditions and
                   preferences. In most cases, a worker receives an annual bioassay analysis.

                   Numerous factors affect the cost of performing bioassay analyses. One
                   factor is the minimum detectable amount (MDA). The MDA is the smallest
                   amount of activity that will be detected in a urine sample with a 5-percent
                   probability of false detection while accepting a 5-percent probability of non-
                   detection. The lower the MDA, the more costly the analysis. Other factors
                   which affect the cost include urine volume, count time,1 turnaround time,2 and
                   data reporting requirements.

                   Four of the sites reviewed subcontracted their bioassay services, while three
                   sites performed their bioassay analyses at in-house Departmental
                   laboratories. Kaiser-Hill Company, LLC (Kaiser-Hill), the management and
                   integration contractor at the Rocky Flats Environmental Technology Site,
                   subcontracted their bioassay services with two commercial laboratories. The
                   subcontracts were modified in February 1998 to make the rates available for
                   Departmentwide use. Pacific Northwest National Laboratory Division of
                   Battelle Memorial Institute (PNNL), Bechtel Jacobs Company, LLC
                   (Bechtel Jacobs), and West Valley Nuclear Services Company, Inc. (West
                   Valley) each awarded a subcontract for their bioassay services to the same
                   commercial laboratory. This laboratory was one of the two laboratories
                   included in the Departmentwide subcontracts. The Oak Ridge National
                   Laboratory (ORNL), the Y-12 Plant (Y-12), and the Savannah River Site
                   (Savannah River) performed their bioassay analyses at in-house
                   Departmental laboratories.


                   ______________________________
                   1
                     Count time is the period of time a sample is placed in a counting instrument to detect
                     and quantify radioactivity. The longer the count time, the more costly the analysis.
                   2
                     Turnaround time is the elapsed time from the date the laboratory receives a sample to
                     the date the site receives the analyzed results. The shorter the turnaround time, the
                     more costly the analysis.


Page 1                                                                   Introduction and Objective
         The Office of Inspector General (OIG) has issued several reports related to
         obtaining bioassay and environmental monitoring services. Report DOE/IG-
         0375, Audit of the Department of Energy's Commercial Laboratory
         Quality Assurance Evaluation Program (June 1995), concluded that
         Departmental contractors conducted redundant quality assurance evaluations
         of commercial laboratories, applied standards inconsistently, and did not
         effectively communicate the results of these reviews. Also, Report ER-B-98-
         02, Audit of Environmental Monitoring and Health Physics Laboratories
         at the Savannah River Site (October 1997), concluded that the
         Westinghouse Savannah River Company did not perform life-cycle cost
         analyses or properly reassess construction projects, and could not ensure that
         the construction of new laboratories was the most cost-effective alternative
         available to accomplish the site’s environmental monitoring and health physics
         missions. Report
         ER-B-98-03, Audit of the Union Valley Sample Preparation Facility at
         Oak Ridge (November 1997), concluded that Lockheed Martin Energy
         Systems did not base the acquisition of the Union Valley Sample Preparation
         Facility on valid mission requirements, and the contractor restricted the
         location of the new facility to an approximate
         16-square-mile area without establishing a programmatic need for the
         restriction.

         In addition, the OIG issued a report on the use of Departmentwide
         subcontracts in December 1997. Report ER-B-98-05, Audit of the
         Department of Energy's Contracts with Envirocare of Utah, Inc.,
         concluded that the Department's contractors did not always use the most
         favorable rates available when disposing of contaminated waste. Although
         volume discounts were available under Departmentwide subcontracts, two of
         the Department's contractors awarded subcontracts to Envirocare of Utah
         (Envirocare) with rates that were higher than the Departmentwide rates.
         During the audit, one of the contractors reopened negotiations with
         Envirocare and obtained a lower rate, thereby saving the Department about
         $3.2 million over 3 years. In response to this report, the Office for
         Environmental Management distributed a list of available Departmentwide
         subcontracts and rates and directed field activities to require all contractors to
         use the most favorable rates available to the Department.

         The objective of this audit was to determine whether the Department's
         contractors obtained bioassay analyses at the lowest prices available.



Page 2                                                      Introduction and Objective
CONCLUSIONS AND
OBSERVATIONS      The Department's contractors did not obtain bioassay analyses at the lowest
                  prices available. Although discounts were available under Departmentwide
                  subcontracts, two of the Department's contractors issued their own
                  subcontracts for bioassay analyses with rates that were higher than the
                  Departmentwide rates. Also, three contractors paid substantially different
                  rates for similar or identical analyses performed by the same subcontractor.
                  These conditions occurred because the Department did not require
                  contractors to use the Departmentwide subcontracts and consolidate
                  requirements into a single, cost-effective basic ordering agreement. As a
                  result, the Department incurred unnecessary costs of about $495,000 during
                  FYs 1998 and 1999.

                  Also, we could not determine if the Department obtained bioassay analyses
                  at the lowest prices available for 74 percent of the analyses reviewed
                  because the three in-house laboratories were not required to capture the
                  actual cost of specific analyses performed. As a result, the Department
                  cannot determine whether it is more cost-effective to continue performing
                  bioassay analyses in-house or subcontract the work to commercial
                  laboratories.

                  The audit identified issues that management should consider when preparing
                  its yearend assurance memorandum on internal controls.




                                                             (Signed)

                                                         Office of Inspector General




Page 3                                                     Conclusions and Observations
BIOASSAY SUBCONTRACTS
Bioassay Analyses Were       The Department's contractors did not obtain bioassay analyses at the
Not Obtained at the Lowest   lowest prices available. Although discounts were available under
Prices Available             Departmentwide subcontracts, two of the Department's contractors
                             issued their own subcontracts for bioassay analyses with rates that were
                             higher than the Departmentwide rates. Also, three contractors paid
                             substantially different rates for similar or identical analyses performed by
                             the same subcontractor.

                             PNNL and Bechtel Jacobs issued subcontracts with rates that were
                             higher than those included in Departmentwide subcontracts. For
                             example, PNNL and Bechtel Jacobs paid $470,514 for analyses of
                             isotopic plutonium. By using the Departmentwide subcontract, PNNL
                             and Bechtel Jacobs could have obtained the analyses for only $314,090.
                             Similarly, for the analysis of isotopic uranium, Bechtel Jacobs paid
                             $253,188. Under the Departmentwide subcontract, Bechtel Jacobs
                             could have obtained the analyses for only $198,818. In both of these
                             examples, the MDA and reporting requirements included in the
                             Departmentwide subcontracts were identical or more stringent than those
                             included in the PNNL and Bechtel Jacobs subcontracts.

                             Additionally, three contractors, PNNL, Bechtel Jacobs, and West Valley,
                             paid substantially different rates for similar or identical analyses performed
                             by the same subcontractor. Sixteen types of bioassay analyses were
                             performed for the contractors but not included in the Departmentwide
                             subcontracts. For example, the three contractors engaged the same
                             outside firm for a bioassay analysis of A3 . The subcontract price per unit
                             ranged from $81 for West Valley to $177 for Bechtel Jacobs. Thus
                             Bechtel Jacobs paid twice the cost per unit that was incurred by West
                             Valley for the same bioassay test. In a second example, the three
                             contractors subcontracted for a bioassay analysis of B3 . Although using
                             the same subcontractor, West Valley obtained a more favorable rate than
                             PNNL for the second analysis. The analysis cost $297 under the PNNL
                             subcontract and only $171 under the West Valley subcontract. In each
                             of these examples, the MDA included in the West Valley subcontract was
                             more stringent than the MDA in the PNNL and Bechtel Jacobs
                             subcontracts.




                             3
                                 The specific name of the sample is not included because it is business sensitive
                                 pricing information.

Page 4                                                                                      Details of Finding
   Centralized Contracting Is   Title 48 of the Code of Federal Regulations, Section 970.7103 states that
   Cost-Effective               Government contractors should apply the best in commercial purchasing
                                practices. To this end, contractors are required to evaluate cost-effective
                                alternatives when purchasing services.
                                The Department has recognized that contract costs can be reduced
                                through centralized contracting. An Integrated Contractor Purchasing
                                Team (ICPT) was established by the Department to aggressively pursue
                                opportunities that leverage the Department's buying power in order to
                                achieve the most favorable pricing available. One of the goals of the
                                purchasing team was to develop basic ordering agreements with
                                commercial laboratories for analytical services. The purchasing team
                                successfully established agreements for a variety of analytical services,
                                including environmental radiochemical analyses. However, the agreement
                                did not address bioassay services.

Contractors Were Not            The Department incurred unnecessary bioassay costs because it did not
Required to Use the             require contractors to use the Departmentwide subcontracts and
Departmentwide                  consolidate bioassay requirements into a single, cost-effective basic
Subcontracts or                 ordering agreement. PNNL, Bechtel Jacobs, and West Valley personnel
Consolidate Requirements        stated that they were unaware of the rates included in the
                                Departmentwide subcontracts. Also, the ICPT discussed the merits of
                                establishing an agreement for bioassay services; however, it had no
                                immediate plans to establish an agreement covering these services.

                                As a result of not using Departmentwide subcontracts and not
Department Incurred             consolidating requirements, the Department incurred unnecessary costs of
Unnecessary Bioassay            $495,000 for FYs 1998 and 1999. The Department incurred $255,000
Costs                           in unnecessary costs because PNNL and Bechtel Jacobs did not use the
                                lower rates available in Departmentwide subcontracts. An additional
                                $240,000 could have been avoided if the Departmentwide subcontracts
                                had been negotiated to include four commonly used analyses and the most
                                favorable rates were used by PNNL and Bechtel Jacobs.

                                We recommend that the Director, Office of Management Systems, Office
                                of Procurement and Assistance Management, in conjunction with the
RECOMMENDATION                  ICPT, develop a procurement strategy to award one or more
                                Departmentwide purchasing agreements that will assure the availability
                                and accessibility of the fullest range possible of high quality, timely, and
                                cost-effective bioassay services.




Page 5                                                              Recommendation and Comments
MANAGEMENT         Management agreed with the finding and recommendation. The Office of
REACTION           Procurement and Assistance Management will request that the ICPT
                   undertake an effort to award such agreement; participate in the
                   development of the procurement strategy for the proposed award; assist
                   in the implementation of that strategy; provide Departmentwide
                   endorsement of the resulting agreements; and, assure that the agreements
                   receive Departmentwide notice of their availability. It is anticipated that
                   these agreements will be awarded by January 2001.

                   We consider management's comments to be responsive to the
AUDITOR COMMENTS   recommendation.




Page 6                                                Recommendation and Comments
DEPARTMENTAL LABORATORIES

The Cost of Analyses      We could not determine if the Department obtained bioassay analyses at the
Performed at In-House     lowest prices available for 74 percent of the analyses reviewed because the
Laboratories Could Not    three in-house laboratories were not required to capture the actual cost of
Be Determined             specific analyses performed. The following chart shows the cost per analysis
                          in FY 1999 as estimated by the Departmental laboratories.


                                  Element                       Site                       Cost


                                  Uranium                     ORNL                         $210
                                                               Y-12                          96
                                                                SRS                         197


                                 Plutonium                    ORNL                         210
                                                               Y-12                        109
                                                                SRS                        197


                                Americium                     ORNL                         280
                                                               Y-12                        156
                                                                SRS                        197



                          The cost estimates vary significantly among the three laboratories because
                          each laboratory includes different cost categories in their estimates. ORNL
                          includes direct labor, direct materials, other indirect costs, and site overhead
                          in its estimates. Y-12 includes direct labor, mission support costs, and site
                          overhead, but it does not include direct materials in its estimates. In contrast,
                          SRS estimates the same average price for all analyses based on budgetary
                          data. Therefore, we could not perform a valid comparison between the
                          costs of analyses performed by in-house laboratories and those performed
                          by commercial laboratories.

Contractors Required to   In 1994, a Department Contract Reform Team concluded that the
Study Subcontracting      Department and its management and operating contractors could achieve
Services                  significant savings by subcontracting some of the contractors’ services. The


Page 7                                                                               Details of Finding
                            team recommended that studies be prepared to ensure that all services were
                            performed at the least cost commensurate with quality results. In June 1997,
                            the Department amended the Department of Energy Acquisition Regulation
                            (DEAR) to require comparisons between the cost of in-house services and
                            the cost of outsourcing. Accordingly, the Department’s contracts at ORNL,
                            Y-12, and the Savannah River Site require that cost studies be performed
                            for various functions including bioassay services.

Department Did Not          Despite the DEAR and contractual requirements, the contractors did not
Require Contractors to      capture the actual costs of bioassay analyses performed and compare actual
Capture Actual Costs        in-house costs to the costs of outsourcing. Consequently, each site
                            developed a unique method for estimating the costs of bioassay analyses
                            performed in-house.

Department Cannot Ensure    In the absence of actual cost data, the Department cannot accurately
Departmental Laboratories   determine whether it is more cost-effective to continue performing bioassay
Are Cost-Effective          analyses in-house or subcontract the work to commercial laboratories.

RECOMMENDATIONS             We recommend that the Director, Office of Management Systems, Office of
                            Procurement and Assistance Management:

                            1. Assure that contractors include bioassay services in their
                               make-or-buy plans and maintain cost records sufficient to determine, in
                               accordance with the DEAR and contractual
                               make-or-buy requirements, whether bioassay services should be
                               performed in-house or subcontracted out; and

                            2. In conjunction with the ICPT, establish a standard schedule of cost
                               elements to use in comparing the cost of performing bioassay services in-
                               house against the cost of subcontracting for bioassay services.

MANAGEMENT                  Management agreed with the finding and recommendations. The DEAR
REACTION                    states that services estimated to cost less than 1.0 percent of the estimated
                            operating cost for a year or $1 million for the same year, whichever is less,
                            are not required to be included in contractor
                            make-or-buy plans. The Office of Procurement and Assistance Management
                            will reemphasize to contractors whose bioassay services purchases meet the
                            threshold for make-or-buy plans their responsibility to perform required
                            make-or-buy analyses concerning these services.



Page 8                                                           Recommendations and Comments
                   The DEAR states that adjustment may be made to the threshold where
                   programmatic or cost considerations would indicate that a particular service
                   should be included in the make-or-buy plan. For those contractors who do
                   not meet the threshold for inclusion in their
                   make-or-buy plans, the Office of Procurement and Assistance Management
                   will direct contractors needing bioassay services to perform make-or-buy
                   analyses for these services whenever a change from subcontracting out to in-
                   house performance, or an expansion on
                   in-house performance, is contemplated. The foregoing actions will
                   necessitate the maintenance of cost records sufficient to determine whether
                   bioassay services should be performed in-house or subcontracted out for all
                   contractors acquiring these services. It is anticipated that this effort will be
                   completed by July 2000.

                   In addition, the Office of Procurement and Assistance Management will
                   request that the ICPT develop a standard set of cost elements for bioassay
                   services in the course of their effort to establish Departmentwide purchase
                   agreements, and will assure that the resulting schedule of costs is
                   promulgated throughout the Department. It is anticipated that this effort will
                   be completed January 2001.

AUDITOR COMMENTS   We consider management's comments to be responsive to the
                   recommendations.




Page 9                                                   Recommendations and Comments
Appendix

SCOPE         The audit was performed from April 5, 1999, to December 16, 1999, at
              Department Headquarters and the following seven sites: ETTP, Y-12, and
              ORNL in Oak Ridge, Tennessee; Savannah River Site near Aiken, South
              Carolina; Hanford Site near Richland, Washington; Rocky Flats
              Environmental Technology Site in Golden Colorado; and the West Valley
              Demonstration Project in West Valley, New York. The scope of the audit
              included routine bioassay analysis of urine samples performed during FYs
              1998 and 1999.

              The table below identifies the number of routine bioassay analyses performed
              and the estimated cost for each of the seven sites reviewed in FY 1999.
              Because of the wide range of analyses and cost per analysis, the average
              price per analysis does not provide a valid comparison between sites.


                                             Number of                  Estimated
                        Site              Routine Analyses                Cost
                  Savannah River                34,468                  $2,657,000

                       Y-12                     13,190                   1,444,000

                   Rocky Flats                   6,984                     946,000

                       ETTP                      4,935                     914,000

                     Hanford                     4,915                     903,000

                      ORNL                       3,694                     690,000

                   West Valley                   1,266                     120,000

                                                69,452                  $7,674,000

METHODOLOGY   To accomplish the audit objective, we:

              •   Reviewed technical basis documents for internal dosimetry programs;

              •   Reviewed test parameters and cost data for various analyses performed
                  in FYs 1998 and 1999;
              •   Reviewed current and future subcontracts for bioassay services awarded



Page 10                                                       Scope and Methodology
              by Kaiser-Hill, PNNL, Bechtel Jacobs, and West Valley; and

          •   Held discussions with Departmental and contractor personnel regarding
              bioassay programs and the establishment of a Departmentwide
              subcontract for bioassay services.

          The Department has developed and is in the process of implementing
          performance measures for bioassay programs in accordance with the
          Government Performance and Results Act of 1993. For example, the
          Department has established a measure which requires all bioassay programs
          to be accredited by January 2002. Accreditation is awarded based on
          successful completion of performance testing and an in-house evaluation by
          technical experts. The Department has established a laboratory accreditation
          program to perform this function. Of the seven sites reviewed, ORNL had
          already received accreditation, and Y-12, PNNL, and Savannah River were
          recommended for accreditation.

          The audit was performed in accordance with generally accepted Government
          auditing standards for performance audits and included tests of internal
          controls and compliance with laws and regulations to the extent necessary to
          satisfy the audit objective. Accordingly, the assessment included reviews of
          Departmental and contractor policies, procedures, and performance
          measures related to bioassay services. Because our review was limited, it
          would not necessarily have disclosed all internal control deficiencies that may
          have existed at the time of our audit. We did not assess the reliability of
          computer-generated data because only a very limited amount of
          computer-generated data was used during the audit.

          We held an exit conference with the Director, Office of Management
          Systems, Office of Procurement and Assistance Management, on January
          13, 2000.




Page 11                                                     Scope and Methodology
                                                                                   IG Report No. : DOE/IG-0458

                                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report to
   assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________               Date __________________________

Telephone _________________________              Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-0948, or
you may mail it to:

                                        Office of Inspector General (IG-1)
                                              Department of Energy
                                             Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost effective
 as possible. Therefore, this report will be available electronically through the Internet at the following alternative
                                                        address:


                        Department of Energy Management and Administration Home Page
                                             http://www.ig.doe.gov


                        Your comments would be appreciated and can be provided on the
                               Customer Response Form attached to the report.
